THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago
By Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Re:

September 12, 2019

Michelle Carter v. Commonwealth of Massachusetts, No. 19-62 —
Request for an Extension of Time

Dear Clerk Harris,
The Court has requested that the Commonwealth of Massachusetts file a
brief in response to the petition for a writ of certiorari in the above-named case by
September 23, 2019. Pursuant to Supreme Court Rule 30.4, the Commonwealth
respectfully requests that the time allowed to file its brief be extended by 60 days,
to November 22, 2019. Counsel for Petitioner has assented to this request.
This request is based on the need for additional time to prepare a helpful
response to the petition. While undersigned counsel will prioritize the matter,
additional time is necessary due to overlapping briefing deadlines, supervisory
responsibilities, and oral arguments; the need for considerable internal review of
the brief; and the fact that undersigned counsel is new to this matter and was
traveling out of the country for the first 10 days following this Court’s request.
Thank you for your consideration.
Sincerely,
/s/ Elizabeth N. Dewar
Elizabeth N. Dewar
(617) 963-2204
bessie.dewar@mass.gov
cc:

Daniel N. Marx

